   August 5, 2004




Financial Management
Selected Controls Over the Army
Fund Balance with Treasury at
Defense Finance and Accounting
Service Indianapolis (D-2004-106)




                 Department of Defense
             Office of the Inspector General

                                   Constitution of
                                  the United States

     A Regular Statement of Account of the Receipts and Expenditures of all public
     Money shall be published from time to time.
                                                             Article I, Section 9
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Inspector
  General of the Department of Defense at http://www.dodig.osd.mil/audit/reports or
  contact the Secondary Reports Distribution Unit, Audit Followup and Technical
  Support at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact Audit Followup and
  Technical Support at (703) 604-8940 (DSN 664-8940) or fax (703) 604-8932.
  Ideas and requests can also be mailed to:

                   ODIG-AUD (ATTN: AFTS Audit Suggestions)
                   Inspector General of the Department of Defense
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704




Acronyms
DFAS                  Defense Finance and Accounting Service
DODR                  Disbursing Officer Deposit Report
FBWT                  Fund Balance With Treasury
IG DoD                Inspector General of the Department of Defense
TTB                   Treasury Trial Balance
          Office of the Inspector General of the Department of Defense
Report No. D-2004-106                                                     August 5, 2004
   (Project No. D2004FI-0008)

      Selected Controls Over the Army Fund Balance with Treasury
         at Defense Finance and Accounting Service Indianapolis

                                Executive Summary

Who Should Read This Report and Why? DoD financial managers and personnel who
prepare financial statements should read this report. The report identifies a control
weakness regarding suspense accounts and reconciliation of net disbursements, which led
to material uncertainties in the FY 2003 Army Fund Balance with Treasury.

Background. We examined the Fund Balance with Treasury reported on the Army
General Fund FY 2003 Balance Sheet, which reported total assets of $208.7 billion,
including the Fund Balance with Treasury of $54.7 billion. The Fund Balance with
Treasury represents the aggregate amount of the Army General Fund accounts with the
U.S. Treasury from which the Army is authorized to make collections and expenditures.

Defense Finance and Accounting Service (DFAS) Indianapolis provides finance and
accounting support to the Army and Defense agencies. Army and Defense agency field
accounting entities provide DFAS Indianapolis with general ledger trial balances and
other financial data on the status of appropriations, and DFAS Indianapolis uses the
information to maintain departmental accounting records and to prepare the entities’
financial statements. DFAS Indianapolis also reconciles detailed records of transactions
temporarily recorded in suspense accounts maintained by field or departmental
accounting entities with summary records maintained by the Department of the Treasury.
DFAS Indianapolis is also responsible for ensuring the accuracy of the Fund Balance
with the Treasury reported on the financial statement Balance Sheets. In order to do this,
DFAS must reconcile the departmental records to the net disbursement amounts reported
by the Department of the Treasury.

Results. During our audit of the FY 2003 Army General Fund Financial Statements we
determined that DFAS Indianapolis continued to have inadequate controls over suspense
accounts. Specifically, field and departmental accounting records were not reconciled
with Department of the Treasury records and the differences resolved. In FY 1997 DFAS
Indianapolis reported the reconciliation of suspense account balances as a material
management control weakness. Since that time, DFAS has neither made progress in
correcting the material weakness nor established a corrective action plan to correct the
material weakness, as recommended in a prior Inspector General of the Department of
Defense report. The difference between the suspense account balances reported by the
Department of the Treasury records and the departmental accounting records has
increased over the past 3 years by $767.3 million, or 469 percent. (The difference was
$207.8 million for FY 2000 and increased to $975.1 million for FY 2003.) This material
management control weakness over suspense accounts reduces the reliability of the Fund
Balance with Treasury amount reported on the Army General Fund Balance Sheet.
Further, DFAS Indianapolis cannot monitor the resolution of transactions in the suspense
accounts effectively. Unresolved transactions residing in suspense accounts can conceal
problem disbursements and fraud. The Under Secretary of Defense (Comptroller)/Chief
Financial Officer should update the performance metric on suspense accounts to track the
progress of DFAS Indianapolis corrective actions. The Director of DFAS Indianapolis
should develop and implement a corrective action plan as recommended in a prior
Inspector General of the Department of Defense audit report, and update standard
operating procedures to reconcile suspense account balances. (See Finding A of the
report for the detailed recommendations.)

In addition, DFAS Indianapolis did not resolve the Army General Fund net
disbursements reported by the Department of the Treasury and the departmental
accounting records for net disbursements maintained by DFAS Indianapolis. As a result,
1,334 variance items that were more than 90 days old remained unresolved as of
September 30, 2003. The items totaled approximately $1.8 billion ($31 million net). The
difference between the Army General Fund net disbursements reported by the
Department of the Treasury and the departmental accounting records for net
disbursements maintained by DFAS Indianapolis reflected an uncertainty affecting the
reliability of the Fund Balance with Treasury amount reported on the Army General Fund
Balance Sheet. Also, the Fund Balance with Treasury footnote to the FY 2003 Army
General Fund Balance Sheet was inaccurate and misleading. The Director of DFAS
Indianapolis should develop and implement a plan for reconciling the Treasury records,
and train all personnel responsible for performing reconciliation procedures. The
Director of DFAS Indianapolis should also report variances between the Treasury and
departmental accounting records in accordance with DoD guidance. (See Finding B of
the report for the detailed recommendations.)

Management Comments. The Under Secretary of Defense (Comptroller)/Chief
Financial Officer and the DFAS Director, Accounting Services Army concurred with the
audit findings and the intent of all the recommendations; therefore, no further comments
are required. See the Finding section of the report for a discussion of management
comments and the Management Comments section of the report for the complete text of
the comments.




                                           ii
Table of Contents

Executive Summary                                                              i

Background                                                                    1

Objectives                                                                    2

Findings
     A. Reconciliation of Suspense Account Balances                           3
     B. Reconciliation of Net Disbursements                                   9

Appendixes
     A. Scope and Methodology                                                 13
         Management Control Program Review                                    13
         Prior Coverage                                                       14
     B. Report Distribution                                                   15

Management Comments
     Office of the Under Secretary of Defense (Comptroller)/Chief Financial
        Officer                                                               17
     Defense Finance and Accounting Service – Indianapolis                    19
Background
    We performed this audit in support of Public Law 101-576, the “Chief Financial
    Officers Act of 1990,” November 15, 1990, as amended by Public Law 103-356,
    the “Federal Financial Management Act of 1994,” October 13, 1994. The
    Inspector General of the Department of Defense (IG DoD) is required to audit the
    annual financial statements of the Department of Defense. This report is a result
    of work performed in support of the audit of the Army General Fund financial
    statements.

    Army General Fund Financial Statements. The Army General Fund Financial
    Statements consisted of the consolidated balance sheet; consolidated statements
    of net cost and changes in net position; combined statements of budgetary
    resources and financing, along with the supporting footnotes; supplementary
    schedules; and the management overview. The balance sheet presented amounts
    of future economic benefits owned or managed by the Army General Fund
    exclusive of items subject to stewardship reporting, amounts owed by the Army,
    and General Fund equity. The FY 2003 Army General Fund Balance Sheet
    reported total assets of $208.7 billion. The FY 2003 Army General Fund Balance
    Sheet reported $54.7 billion for Fund Balance with Treasury (FBWT), or 26
    percent of total assets. The FBWT represents the aggregate amount of the Army
    General Fund accounts with the U.S. Treasury from which the Army is authorized
    to make collections and expenditures.

    Defense Finance and Accounting Service, Indianapolis. The Defense Finance
    and Accounting Service (DFAS) Indianapolis provides finance and accounting
    support to the Army and Defense agencies. Support includes maintaining
    accounting records at the Department of the Army or Defense agency level
    (departmental accounting records). DFAS Indianapolis also prepares financial
    statements using general ledger trial balances and financial data on the status of
    appropriations submitted by DoD field accounting activities and other sources.
    DFAS Indianapolis is also responsible for ensuring the accuracy of the FBWT
    reported on the Balance Sheet. DFAS Indianapolis controls the reconciliation of
    detailed field or departmental accounting records with records maintained by the
    Department of the Treasury. The concept of reconciling departmental accounting
    records with the Department of the Treasury is analogous to a business
    reconciling its checkbook to a bank statement. DFAS Indianapolis should
    reconcile suspense account balances and net disbursement financial information.

            Reconciliation of Suspense Account Balances. Personnel at field
    accounting activities make disbursements for goods or services and make
    collections from other Government activities or the public. Each of these
    disbursement and collection transactions must be recorded in the accounting
    records maintained by the field accounting activities. If the personnel at the field
    accounting entities make mistakes while recording the disbursements and
    collections, the transactions cannot be processed correctly and must be placed in
    suspense accounts. Suspense accounts are clearing accounts that temporarily hold
    collection and disbursement transactions pending correction of the errors that
    prevented the correct processing of the transactions in the first place. For


                                         1
    example, a disbursement recorded for a nonexistent appropriation could be placed
    in a suspense account pending the identification of the appropriation that should
    be charged. Transactions placed in suspense accounts, or suspended transactions,
    should be identifiable to a specific appropriation and fiscal year. Field accounting
    activities should maintain detailed records of suspended transactions. The
    balance of detailed suspense account records maintained by field accounting
    activities should be reconcilable to the summary FBWT balance (general ledger
    account 1010). DFAS Indianapolis forces the summary FBWT balance to match
    the FBWT balance recorded in the Undisbursed Appropriation Account Trial
    Balance (TFS 6654), because DFAS Indianapolis does not have an independent
    source to verify the summary FBWT balance. Suspense accounts should be
    reconciled and transactions resolved or charged back to the originating activity.

            Reconciliation of Net Disbursements. Personnel at field accounting
    activities report disbursements and collections for all Army General Fund
    appropriations to DFAS Indianapolis each month. DFAS Indianapolis uses these
    reports to prepare a single report on disbursements and collections, or net
    disbursements, to the Department of the Treasury. In turn, the Department of the
    Treasury sends DFAS Indianapolis a report, the Treasury Trial Balance (TTB),
    showing the net disbursements according to the records maintained by the
    Department of the Treasury. DFAS Indianapolis personnel should analyze,
    reconcile, and eliminate differences between its own records and the TTB.
    Differences may occur because a field accounting entity outside the Department
    of the Army reports disbursements or collections to the Treasury, but not to
    DFAS Indianapolis; and other field accounting activities report transactions to
    DFAS Indianapolis but not to the Treasury.


Objectives
    Our overall audit objective was to determine whether DFAS Indianapolis properly
    monitored and reconciled suspense accounts and the TTB. We also reviewed the
    management control program as it related to the overall objective. See
    Appendix A for a discussion of the scope and methodology and our review of the
    management control program, and for prior coverage related to the objectives.




                                         2
           A. Reconciliation of Suspense Account
              Balances
           DFAS Indianapolis continued to have inadequate controls over suspense
           accounts. Specifically, field and departmental accounting records were
           not reconciled with Department of the Treasury records and the
           differences resolved. In FY 1997 DFAS Indianapolis reported the
           reconciliation of suspense account balances as a material management
           control weakness. Since that time, DFAS has neither made progress in
           correcting the material weakness nor established a corrective action plan
           to correct the material weakness, as recommended in a prior IG DoD
           report. The difference between the suspense account balances reported by
           the Department of the Treasury records and the departmental accounting
           records has increased over the past 3 years by $767.3 million, or
           469 percent. (The difference was $207.8 million for FY 2000 and
           increased to $975.1 million for FY 2003.) This material management
           control weakness over suspense accounts reduces the reliability of the
           FBWT amount reported on the Army General Fund Balance Sheet.
           Further, DFAS Indianapolis cannot monitor the resolution of transactions
           in the suspense accounts effectively. Unresolved transactions residing in
           suspense accounts can conceal problem disbursements and fraud.


Suspense Account Management
    DoD and Treasury Guidance. DoD Regulation 7000.14-R, the DoD Financial
    Management Regulation, volume 3, chapter 11, “Budget Execution – Availability
    and Use of Budgetary Resources,” January 2001, requires that all transactions
    posted to suspense accounts 21F3875 (Budget Clearing Account) and 21F3885
    (Undistributed Intergovernmental Payments) be either resolved or charged back
    to the originating activity within 60 days. The Treasury Financial Manual,
    Bulletin No. 2003-07 (July 2003), “Subject: Yearend Closing,” requires agencies
    to resolve all transactions in budget clearing accounts at the end of the fiscal year.

    Suspense Account Reporting. There are two reports that should be used to
    monitor the reconciliation of suspense accounts.

           Undisbursed Appropriation Account Trial Balance. The Undisbursed
    Appropriation Account Trial Balance (TFS 6654) reflects the month-end closing
    balance recorded in the U.S. Treasury records for all Army General Fund
    appropriations. These balances are based on the cumulative net disbursements
    reported to the Department of the Treasury by disbursing stations.

            Disbursing Officer Deposit Report. The Disbursing Officer Deposit
    Report (DODR) is a monthly report of suspense account balances sent from the
    accounting stations to DFAS Indianapolis. This report is based on records
    maintained by the field accounting activities and is the only report that shows the
    ages of suspense account balances. DFAS Indianapolis Standard Operating


                                          3
    Procedure No. 651, “Monitorship of D.O. (Disbursing Office) Deposit Account,”
    November 18, 1999, states that DFAS Indianapolis personnel should analyze the
    monthly Suspense Account Report.


Suspense Account Controls
    DFAS Indianapolis continued to have inadequate controls over suspense
    accounts. Specifically, DFAS Indianapolis did not reconcile the summary
    balances for suspense accounts, reported to DFAS Indianapolis on the FMS 6654,
    with the detailed records of suspense account balances reported on the DODR.
    The detailed records of suspense account balances should also be reconcilable
    with the summary FBWT balance (general ledger account 1010).

    Material Management Control Weakness. DFAS Indianapolis has reported
    the reconciliation of suspense account balances as a material management control
    weakness since FY 1997. DFAS Indianapolis originally intended to correct the
    material weakness by FY 1998. However, the correction date has continued to
    slip. The FY 2003 DFAS Annual Assurance Statement reported the target
    correction date as June 2004, but in his response to this audit the Director,
    Accounting Services Army stated that corrective action would not be completed
    until September 30, 2004. The DFAS Indianapolis FY 2003 Annual Assurance
    Statement reported:

               Suspense account balances require extensive reconciliation to
               ensure that accounts are properly used, supported by adequate
               documentation, cleared timely, and in agreement with Treasury Trial
               Balances. Transactions residing in suspense accounts can conceal
               problem disbursements and fraud. [Emphases added.]

    DFAS Indianapolis Progress. DFAS Indianapolis has made no progress in
    correcting the material weakness over reconciling suspense account balances.
    The DODR showed $1,395.3 million for the suspense accounts while the TTB
    reported $453.2 million as of September 30, 2003. Suspense account balances
    reported by field accounting entities exceeded suspense account balances reported
    by the Department of the Treasury by a net of $942.1 million, or an absolute
    difference of $975.1 million as shown in Table 1.




                                           4
                 Table 1. Fiscal Year 2003 Ending Balance Differences
                                       (millions)

                              FMS 6654             DODR            Absolute Value
      Suspense Account         Balance                              of Difference

          21 F 3875               $ 82.3           $1,040.9             $ 958.6

          21 F 3885                370.9              354.4                  16.5

           Totals                 $453.2           $1,395.3               $975.1
       (Column Sums)


     The difference between the summary suspense account balances reported on
     FMS 6654 and the balances for the same suspense accounts based on the DODR
     has grown from $207.8 million for FY 2000 to $975.1 million for FY 2003, an
     increase of $767.3 million, or 469 percent, in 3 years. This material weakness
     reduces the reliability of the FBWT amount reported on the Army General Fund
     Balance Sheet because the actual suspense account balances cannot be identified.


Disbursing Officer Deposit Report and Corrective Action
     DFAS Indianapolis has not taken action to establish correct balances in the
     DODR. At the end of FY 2003, DFAS Indianapolis did not ensure that field
     activities properly resolved the transactions recorded in the two suspense account
     records. Instead, DFAS Indianapolis prepared an accounting adjustment for
     21F3875 and 21F3885 for $453.1 million to temporarily reduce the suspense
     account balances recorded by the Department of the Treasury to zero. Adequate
     reconciliation is impossible without accurate balances. DFAS Indianapolis also
     has not established an effective corrective action plan to correct the material
     weakness, as recommended in IG DoD Report No. D-2001-158, “Compilation of
     the FY 2000 Army General Fund Financial Statements at the Defense Finance
     and Accounting Service Indianapolis (Sustaining Forces),” July 13, 2001. In
     addition, the Under Secretary of Defense (Comptroller)/Chief Financial Officer
     needs to update the performance metric on suspense accounts to ensure that
     DFAS Indianapolis corrects the material management weakness and implements a
     corrective action plan.

     Suspense Account Report Balances. DFAS Indianapolis will not be able to
     perform a reconciliation of suspense account balances, as described in the Annual
     Statement of Assurance, until it establishes accurate balances in the Suspense
     Account Report. From FY 2000 to FY 2003, the DODR balances for 21F3875
     and 21F3885 have increased from $385.5 million to $1.4 billion, or 362 percent in
     3 years. This large increase emphasizes the need to establish an accurate balance
     in the Suspense Account Report.


                                           5
A contributing factor is DFAS failure to update its procedures to reflect the
validation indicators for reconciling suspense accounts contained in the
Annual Assurance Statement. Standard Operating Procedure No. 651 does not
include actions identified in the Annual Statement of Assurance, for example:

       •   validate suspense account balances and ensure the balances are
           supported,

       •   validate field level transactions with Treasury, and

       •   validate procedures used to record transactions to ensure they are in
           accordance with published guidelines.

DFAS Indianapolis should make the validation of the DODR balances a top
priority in order to start the reconciliation process. DFAS Indianapolis cannot
monitor the resolution of transactions in the suspense accounts effectively.
Unresolved transactions residing in suspense accounts can conceal problem
disbursements and fraud. DFAS Indianapolis should update its standard
operating procedures to reflect statements made in the Annual Assurance
Statement.

Corrective Action Plan. The lack of proper reconciliation of suspense account
balances was addressed in IG DoD Report No. D-2001-158 in July 2001. The
audit report recommended that DFAS Indianapolis determine the actual balance
of each suspense account and establish an approved action plan with specific
target dates to meet requirements for reconciling suspense accounts 21F3875 and
21F3885. DFAS Indianapolis concurred with the recommendation stating they
would develop a plan by March 24, 2002.

DFAS Indianapolis personnel stated they had several ideas for procedures that
would correct the material weakness; however, they had not developed an
approved corrective action plan. DFAS Indianapolis personnel stated they have
focused their efforts on preparing requests for write-offs of unreconciliable
suspense account transactions in accordance with Public Law 107-314,
“Bob Stumpf National Defense Authorization Act for Fiscal Year 2003.” DFAS
Indianapolis personnel prepared write-off packages for submission to DFAS
Headquarters for approval to eliminate unreconciliable suspense account
balances.

DFAS Indianapolis has expended resources on preparing write-off packages when
the effort could have been used to reconcile suspense account balances. The one
write-off package submitted to DFAS Headquarters for approval was rejected for
the lack of supporting documentation. The next package requested a write-off of
a net $2.3 million in transactions, which is not material to the FBWT. It is
unlikely that DFAS Indianapolis will be able to identify significant amounts of
transaction write-offs until it has established accurate suspense account balances.
Establishing and implementing an action plan is still a viable recommendation for
ensuring that suspense account balances are accurate and reconciled.

Performance Metric. The Under Secretary of Defense (Comptroller)/Chief
Financial Officer needs to update the suspense account performance metric to


                                     6
    ensure that DFAS Indianapolis corrects the material management weakness and
    implements a corrective action plan. The existing metric shows monthly suspense
    account balances and has a goal of a ten percent reduction of the FY 2004 balance
    per year; however, the problem at DFAS Indianapolis is increasing. The
    performance metric should include:

               •   elements that address the corrective actions identified in the
                   Annual Assurance Statement and the IG DoD report,

               •   milestone dates for each element, and

               •   the progress made in meeting the plan elements and milestone
                   dates at periodic intervals.

    An updated metric is needed for the following reasons:

               •   a material weakness has existed for 6 years,

               •   Annual Assurance Statement corrective actions have not been
                   included in the standard operating procedures, and

               •   the IG DoD recommendation was not implemented by the agreed-
                   upon date.

Conclusion
    Between FY 2000 and FY 2003, the difference in balances between the TTB and
    the Suspense Account Record has increased by 469 percent. This represents a
    material and increasing uncertainty that will impact the Army’s ability to obtain
    an unqualified opinion on the General Fund Balance Sheet. In the event that
    DFAS Indianapolis does not determine the actual balance of suspense accounts,
    the amount reported for FBWT on the Army General Fund Balance Sheet will
    remain unreliable.


Recommendations and Management Comments
    A.1. We recommend that the Under Secretary of Defense
    (Comptroller)/Chief Financial Officer update the performance metric on
    suspense accounts to track the progress for reconciling the field accounting
    records of suspense account balances with the summary FBWT balance
    (general ledger account 1010). The metric should include milestones and
    quantify the progress made in meeting the corrective plan elements at
    periodic intervals.

    Management Comments. The Under Secretary of Defense (Comptroller)/Chief
    Financial Officer concurred, stating that the performance metric would be
    developed. On July 12, 2004, Comptroller personnel informed us that the metric


                                         7
would be implemented by September 30, 2004, and would be used for
October 2004 reporting.

A.2. We recommend that the Director, Defense Finance and Accounting
Service Indianapolis:

       a. Develop and implement a corrective action plan as recommended
in IG DoD audit report on the “Compilation of the FY 2000 Army General
Fund Financial Statements at DFAS Indianapolis (Sustaining Forces),”
Report No. D-2001-158, July 13, 2001.

Management Comments. The Director, Accounting Services Army concurred,
stating DFAS implemented the intent of the recommendation as part of the
revised procedures for legislative write-off. Once the final write-off package is
received and approved, DFAS Indianapolis will have supportable balances at field
level, departmental level, and at Treasury. The Director stated all actions would
be completed by August 31, 2004.

       b. Update standard operating procedures to reconcile suspense
account balances and to ensure that suspense accounts are: accurate,
properly used, adequately supported by documentation, cleared timely, and
in agreement with Treasury Trial Balances.

Management Comments. The Director, Accounting Services Army concurred,
stating the standard operating procedures were revised to include detailed
methodology for reconciling field level balances to departmental balances.
Additional revisions will occur after unsupported balances are removed. The
Director stated all actions would be completed by September 30, 2004.




                                    8
            B. Reconciliation of Net Disbursements
            DFAS Indianapolis did not resolve variances between the Army General
            Fund net disbursements reported by the TTB with the departmental
            accounting records for net disbursements maintained by DFAS
            Indianapolis. Also, DFAS Indianapolis incorrectly reported that there
            were no differences between its departmental accounting records and the
            TTB. This occurred because DFAS Indianapolis did not follow its
            standard operating procedures, and personnel were not adequately trained.
            Also, DFAS Indianapolis did not follow DoD guidance for preparing the
            FBWT footnote to the FY 2003 Army General Fund Balance Sheet. As a
            result, 1,334 variance items that were more than 90 days old remained
            unresolved as of September 30, 2003. The items totaled approximately
            $1.8 billion ($31 million net). The difference between the TTB and
            departmental accounting records reflected an uncertainty affecting the
            reliability of the FBWT amount reported on the Army General Fund
            Balance Sheet. Also, the FBWT footnote to the FY 2003 Army General
            Fund Balance Sheet was inaccurate and misleading.


Reconciliation Procedures and Process
     DFAS Indianapolis Reconciliation Process. At the end of each month DFAS
     Indianapolis personnel prepare a report detailing the discrepancies, or variances,
     between the FBWT as recorded by the Department of the Treasury in the TTB,
     and the departmental records maintained by DFAS Indianapolis. DFAS
     Indianapolis personnel then use this TTB variance report to prepare an accounting
     adjustment to force the departmental records to match the TTB. DFAS
     Indianapolis personnel document their TTB reconciliation on spreadsheets. These
     spreadsheets list each variance item, date the variance occurred, and an
     explanation. The variance items are listed at the appropriation level.

     Financial Statement Disclosure of the TTB Variance. DoD Regulation
     7000.14-R, the DoD Financial Management Regulation, volume 6B, chapter 10,
     “Notes to the Financial Statements,” January 2002, requires disclosure of
     information concerning the TTB variance. Footnote 3, “Fund Balance With
     Treasury,” requires disclosure of the amount of the TTB variance and an
     explanation of the variances. The regulation further requires that variances
     resulting from time lags be reconciled, that variances due to errors be corrected,
     and that the amount of each type of variance be disclosed.


Resolution of the Variances
     DFAS Indianapolis did not resolve the TTB with the departmental accounting
     records for net disbursements. Specifically, DFAS Indianapolis did not resolve
     the aged variance amounts, and the TTB reconciliation spreadsheets were


                                          9
            incomplete because they did not include all accounts. As a result, the difference
            between the TTB and departmental accounting records reflected a potential
            uncertainty affecting the amount reported as the FBWT for the Army General
            Fund.

            Aged Variance Amounts. Variance items that might have been caused by errors
            could not be corrected because they were not resolved. The TTB spread sheets,
            as of September 30, 2003, identified 1,573 variance items for $3.3 billion absolute
            value ($29.2 million net). Of the 1,573 variance items, 1,334 items totaling about
            $1.8 billion absolute value (net value of $31 million) were more than 90 days
            old.* These variance items included prior year adjustments and variances in
            closed appropriation accounts. The TTB spreadsheets neither identify how the
            variance items were determined nor what caused them. Table 2 shows examples
            of unresolved variance amounts identified on the TTB spreadsheets.


                         Table 2. Examples of Variances as of September 30, 2003


                                                     Largest Variance Item
                                        Amount                Number of
              Appropriation            (Millions)             Months Old               Date Identified

                 21 F 3875               $371.0                    71                  November 1998

                 21 00 2020              $146.2                    33                    January 2001

                 21 01 0702              $ 11.5                    27                      July 2001


            Reconciliation Spreadsheet Completeness. In addition, there were
            $49.1 million ($7.6 million net value) of variances not accounted for on the
            reconciliation spreadsheets as of September 30, 2003. The DFAS Indianapolis
            personnel responsible for reconciling suspense and receipt accounts were not
            aware of these omitted variance amounts. We were not able to age these variance
            items because the items were not identified on the TTB spreadsheets.


Reconciliation Procedures
            DFAS Indianapolis personnel did not resolve variances between the TTB and
            departmental accounting records because they did not always follow DFAS
            Indianapolis Standard Operating Procedure No. 501, “Balance Forward Vs.
            Treasury Trial Balance Disbursements and Reimbursements,” July 17, 2000. The
            standard operating procedure requires the analysis and reconciliation of Army net
*
    Variance items less than 90 days old are considered timing differences, that is, transactions that are in-
    transit from when they are recorded in the departmental accounting records until the transactions are
    captured by the Department of the Treasury.



                                                         10
    disbursements recorded at Treasury. The standard operating procedure mandates
    that once the cause for any variance between the TTB and departmental
    accounting records has been determined, personnel must prepare a Memorandum
    for Record identifying those differences and the action being taken to resolve
    them. DFAS Indianapolis personnel responsible for reconciling the TTB
    variances did not prepare the memorandum. The DFAS Indianapolis personnel
    responsible for reconciling the suspense and receipt accounts with the TTB were
    not aware of the standard operating procedure’s existence. DFAS Indianapolis
    management should provide training to the personnel responsible for reconciling
    the records, to include:

           •   requirements of Standard Operating Procedure No. 501,

           •   reconciliation methods, and

           •   preparation of the memorandum for the record for correcting variance
               deficiencies.

    The difference between the TTB and departmental accounting records constitutes
    a potential uncertainty affecting the amount reported as the FBWT for the Army
    General Fund. The longer the variance amounts go unresolved, the less likely
    that the variances can be corrected. DFAS Indianapolis should develop and
    implement a plan to ensure the reconciliation requirements are followed. The
    plan should include corrective actions, milestone dates, and performance
    measures. Written periodic updates should be provided to the Director.


Footnote Disclosure of the TTB Variance
    In Footnote No. 3 of the FY 2003 Army General Fund Financial Statements,
    DFAS Indianapolis incorrectly reported that there were no differences between its
    departmental accounting records and the TTB. Line 2A of the footnote,
    “Reconciling Amount,” shows an amount of $0. However, the sum of the
    variances between Treasury and the departmental accounting records in the
    September 2003 TTB variance report was $29.3 million. DFAS Indianapolis
    personnel stated that although the TTB and the departmental accounting records
    may have a variance of $29 million, the Balance Sheet reports a FBWT in
    agreement with the TTB rather than the departmental records, so no variance need
    be reported. While the journal voucher prepared using the TTB variance report
    did force the Army General Fund departmental accounting records into a
    temporary and artificial agreement with the TTB, the underlying variances had
    not been eliminated in accordance with DoD guidance. As a result, the FBWT
    footnote in the Army General Fund FY 2003 Financial Statements was inaccurate.
    DFAS Indianapolis should report variances between the TTB and departmental
    records in accordance with DoD guidance.




                                       11
Recommendations and Management Comments
    B. We recommend that the Director, Defense Finance and Accounting
    Service, Indianapolis:

          1. Develop and implement a plan for reconciling the Treasury Trial
    Balance. The plan should include:

                   a. corrective actions,

                   b. milestone dates,

                   c. performance measures, and

                   d. periodic reporting to the director.

    Management Comments. The Director, Accounting Services Army concurred
    and stated that a plan of action was developed and executed to allow the
    Expenditure and Reporting Division to manually reconcile all balances at the
    Treasury transmitter level. They are developing an automated tool to track and
    age the variances. The Director stated all actions would be completed by
    September 30, 2004.

          2. Train all personnel responsible for performing reconciliation
    procedures.

    Management Comments. The Director, Accounting Services Army concurred
    and stated that the Expenditure and Reporting Division will provide cross training
    to all personnel responsible for performing reconciliation to ensure the continuity
    of operation during the absence of primary personnel. The Director stated all
    actions would be completed by August 31, 2004.

          3. Report variances between the Treasury Trial Balance and
    departmental accounting records in accordance with DoD guidance.

    Management Comments. The Director, Accounting Services Army concurred
    with the recommendation and stated that footnotes on the financial statements will
    reflect all variances. This action will be completed by July 31, 2004.




                                         12
Appendix A. Scope and Methodology
    We reviewed the DFAS Indianapolis processes for monitoring and reconciling
    suspense accounts and the TTB. Specifically, we reviewed the procedures used to
    reconcile net disbursement data reported to the Treasury on FMS Form 6654,
    Undisbursed Appropriations Trial Balances and Receipt Account Trial Balance.
    We examined the TTB Variance Reports, FMS Form 6654, and explanatory
    spreadsheets prepared by DFAS Indianapolis, as of September 30, 2003, to
    determine if all TTB variances are properly reconciled.

    We also examined the DFAS Indianapolis procedures relating to monitoring and
    reconciling the Army General Fund departmental suspense accounts (21F3875
    and 21F3885). We examined Suspense Account Reports and a DFAS
    Indianapolis journal voucher to determine the FY 2003 suspense account
    balances. Our review included interviews with DFAS Indianapolis personnel to
    obtain an understanding of the monitorship and reconciliation process.

    We performed this audit from October 2003 through January 2004 in accordance
    with generally accepted government auditing standards.

    Use of Computer-Processed Data. We used reports generated by accounting
    systems within the U.S. Treasury, DFAS Indianapolis, and DFAS field
    accounting sites to perform this audit. The review of DFAS Indianapolis controls
    over the information used to prepare the Suspense Account Reports casts doubts
    over the data’s validity. These doubts about the reliability of the Suspense
    Account Reports are discussed in Finding A. We did not review the accounting
    systems used by the U.S. Treasury and field accounting sites that produced the
    data that DFAS Indianapolis used to prepare TTB Variance Reports. However,
    the data, when reviewed in context with other available evidence, validate the
    opinions, conclusions, and recommendations in this report.

    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in DoD. This report provides coverage of
    the Defense Financial Management high-risk area.


Management Control Program Review
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26, 1996,
    and DoD Instruction 5010.40, “Management Control (MC) Program Procedures,”
    August 28, 1996, require DoD organizations to implement a comprehensive
    system of management controls that provides reasonable assurance that programs
    are operating as intended and to evaluate the adequacy of the controls.




                                       13
    Scope of the Review of the Management Control Program. We reviewed the
    adequacy of DFAS Indianapolis management controls over suspense accounts and
    TTB Reconciliation. We also reviewed the adequacy of management’s self-
    evaluation of those controls.

    Adequacy of Management Controls. We identified a material management
    control weakness for DFAS Indianapolis, as defined by DoD Instruction 5010.40.
    DFAS Indianapolis management controls to ensure that suspense account
    balances and net disbursements were properly monitored and reconciled were not
    adequate. Recommendations A.1, A.2.a, A.2.b, B.1, B.2, and B.3, if
    implemented, will correct the identified weakness. A copy of the report will be
    provided to the senior official responsible for management controls in DFAS
    Indianapolis.

    Adequacy of Management’s Self-Evaluation. DFAS Indianapolis officials did
    not identify net disbursements reconciliation as an assessable unit and, therefore,
    did not identify or report the material management control weakness identified by
    the audit. DFAS Indianapolis officials identified the reconciliation of suspense
    account balances as an assessable unit and reported suspense account balances as
    a material weakness.


Prior Coverage
    During the last 5 years, the Inspector General of the Department of Defense
    (IG DoD) has issued one report discussing suspense account balances. We did
    not identify any prior reports discussing the net disbursements reconciliation.

IG DoD
    IG DoD Report No. D-2001-158, “Compilation of the FY 2000 Army General
    Fund Financial Statements at the Defense Finance and Accounting Service
    Indianapolis (Sustaining Forces),” July 13, 2001.




                                        14
Appendix B. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Finance and Accounting Service
Director, Defense Finance and Accounting Service – Indianapolis

Non-Defense Federal Organization
Office of Management and Budget




                                          15
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform




                                        16
Office of the Under Secretary of Defense
Comments




                       17
18
Defense Finance and Accounting Service
Indianapolis Comments




                      19
20
21
Team Members
The Office of the Deputy Inspector General for Auditing of the Department of
Defense, Defense Financial Auditing Service prepared this report. Personnel of
the Office of the Inspector General of the Department of Defense who contributed
to the report are listed below.

Paul J. Granetto
Marvin L. Peek
Jack L. Armstrong
Paul C. Wenzel
Emily G. Richards
